                                                                                      Memorandum
             U.S. Department of
             Transportation
             Office of the Secretary
             of Transportation
             Office of Inspector General

Subject:    ACTION: Safety-Related Findings and                                    Date:   February 16, 2005
            Recommendations

  From:     Kenneth M. Mead                                                        Reply to
                                                                                    Attn of: J-1
            Inspector General
    To:     Robert D. Jamison
            Acting Federal Railroad Administrator


       Over the past several years we have issued a series of reports identifying improvements needed
       in the Federal Railroad Administration’s (FRA) inspection and enforcement activities, oversight
       of highway-rail grade crossings, and other safety issues. The purpose of this memorandum is to
       formally apprise you of these reports and their recommendations.

       Most recently, in our December 10, 2004 memorandum1 to the Secretary concerning an
       allegation of relaxed enforcement, we recommended that FRA submit to the Secretary a
       comprehensive plan for implementing a fully functioning program that makes meaningful use of
       analysis of available safety, inspection, and enforcement data. We recommended that the plan:
       (1) focus field inspection activities; (2) assess when a partnership approach is no longer effective
       and more traditional enforcement (i.e., fines) is warranted; and (3) determine appropriate
       numbers and amounts of fines, by factoring in prior safety/enforcement history and trends. Our
       report called for the plan to be submitted by March 10, 2005; be fully operational in no more
       than 6 months after the plan’s submission; and include specific milestones for measuring
       progress.

       The December 10, 2004 memorandum is discussed in more detail below, along with other
       findings and recommendations concerning: (a) data analysis showing that safety problems
       persist, (b) analyses of different approaches that FRA has taken toward railroads in its inspection
       and enforcement program, and (c) safety implications from other audits.

       1
           OIG Memorandum, “Review of Allegations that FRA Deputy Administrator Attempted to Relax Safety Enforcement
           Against Union Pacific,” December 10, 2004.
                                                                                                                                                2



 Data Analyses Show That Safety Problems Persist

 Our most recent analysis of inspection and enforcement data was performed prior to your
 appointment as Acting Administrator. It was the result of an allegation that FRA had relaxed
 safety enforcement of railroads, which we found to be unsubstantiated. But our review of safety
 and enforcement data showed that serious safety problems have long persisted for all four major
 railroads, despite a significant increase in civil penalties FRA has assessed the railroads. We
 looked at five metrics on railroad safety performance and FRA enforcement efforts2 for Fiscal
 Year (FY) 1998 through FY 2003.

 As shown in Figure 1, the dollar amounts of both the proposed and final civil penalties against
 each of the four major railroads were significantly higher from FY 2001 through FY 2003 than
 from FY 1998 through FY 2000. As illustrated in Figure 2, average FRA civil penalty
 settlement amounts (weighted–per million train miles) also increased significantly.

            Figure 1: FRA Civil Penalties - Proposed and Settled                               Figure 2: Average FRA Civil Penalty Settlement
                                                                                                 Amounts (Weighted–Per Million Train Miles)
  Penalties                                                                        Penalties
$14,000,000                                                                        $18,000       FY 1998 - 2000
                                                              NS                                 FY 2001 - 2003
$12,000,000                                                                        $16,000
                                                              CSX
$10,000,000                                                   BNSF                 $14,000
                                                              UP
                                                                                   $12,000
 $8,000,000
                                                                                   $10,000
 $6,000,000
                                                                                    $8,000
 $4,000,000
                                                                                    $6,000
 $2,000,000
                                                                                    $4,000
       $-                                                                           $2,000
               FY 1998 - 2000   FY 2001 - 2003   FY 1998 - 2000   FY 2001 - 2003
                                                                                      $-
                         Proposed                            Settled                             NS               CSX   BNSF       UP




 Despite this increase in penalties, the average number of train accidents per million train miles
 increased for three of the four major railroads from FY 1998 through FY 2000 and from FY
 2001 through FY 2003 (see Figure 3). Union Pacific’s average number of train accidents per
 million train miles was highest and increased the most—7 percent, compared to a 1 percent
 increase industry-wide.




 2
     These metrics are: civil penalties, civil penalties weighted by train miles, average train accident rate, average defect ratios,
      and average inspections. They were derived from FRA databases, which present the safety data by calendar year and the
      enforcement data by fiscal year.
                                                                                                                                           3


                                                      Figure 3: Average Train Accidents
                                                     (Weighted–Per Million Train Miles)
                                       Rate
                                       5.0                    CY 1998 - 2000
                                       4.5                    CY 2001 - 2003
                                       4.0
                                       3.5
                                       3.0
                                       2.5
                                       2.0
                                       1.5
                                       1.0
                                       0.5
                                       0.0
                                              Industry-wide     NS             CSX            BNSF        UP




  Another indicator of a railroad’s safety condition is its defect ratio.3 As illustrated in Figure 4,
  defect ratios for three of the four top railroads increased from FY 1998 through FY 2000 and
  from FY 2001 through FY 2003. Union Pacific had the greatest increase.

  Despite this increase, Union Pacific had been inspected proportionally less than the other
  railroads. It ranked third in FRA inspections per million train miles in calendar years (CY) 1998
  through 2000 and CYs 2001 through 2003, as shown in Figure 5. It seems counterintuitive to us
  that the railroad with the most track miles and the worst accident rate and defect ratio would be
  inspected at a lower rate than two of the three other major railroads that had fewer miles and
  better rates.

          Figure 4: Average Defect Ratios (Instances of Non-                          Figure 5: Average Inspections (Per Million Train Miles)
         Compliance with FRA Standards Per Units Inspected)
Defect                                                                     Avg. # of
Ratio                                                                    Inspections
             CY 1998 - 2000
0.10                                                                           100                                   CY 1998 - 2000
             CY 2001 - 2003
0.09                                                                            90                                   CY 2001 - 2003
0.08                                                                            80
0.07                                                                            70
0.06                                                                            60
0.05                                                                            50
0.04                                                                            40
0.03                                                                            30
0.02                                                                            20
0.01                                                                            10
0.00                                                                             0
             NS               CSX   BNSF                UP                           Industry-wide   NS        CSX    BNSF            UP




  This safety trend is compounded by Union Pacific’s spate of incidents and accidents in 2004,
  some of which involved fatalities. In 2004, FRA conducted a series of on-site inspections to
  determine the extent of Union Pacific compliance with safety regulations. Based on the results
  of these inspections, and in order to improve Union Pacific’s level of compliance, FRA and
  Union Pacific entered into two Safety Compliance Agreements in November 2004.


  3
       The defect ratio is the number of instances of noncompliance with FRA standards, found as a percentage of units inspected.
                                                                                                                           4


Further, circumstances related to the January 6, 2005 Norfolk Southern Railway accident in
Graniteville, South Carolina, underscore the value of trend analysis. Following the accident,
FRA issued to all railroads a safety advisory to all railroads concerning improperly lined
switches.4 An FRA statement about the advisory says, in part, “An improperly lined switch
invites disaster and can be easily avoided. All railroads need to adopt the safety measures
outlined in this advisory.”

Trend analysis of rail safety data identifies improperly lined switches as the second-largest cause
of railroad accidents,5 and the leading cause of accidents resulting from human error. As
depicted in Figure 6, there has been a clear upward trend from 1989 through 2003 in the number
and rate of accidents attributed to improperly lined switches.

                           Figure 6: Number and Rate (Per Million Train Miles)
                       of Railroad Accidents Caused by Improperly Lined Switches
        Accidents                                                                                               Rate
        250                                                                                                      0.35

                            Accidents                                                                            0.30
        200                 Rate
                                                                                                                 0.25
        150
                                                                                                                 0.20

        100                                                                                                      0.15

                                                                                                                 0.10
         50
                                                                                                                 0.05

           0                                                                                                     0.00
               1989 1990 1991 1992 1993 1994 1995 1996 1997 1998 1999 2000 2001 2002 2003

       Source: FRA database

We found that FRA’s inspection program can function in a manner that is (a) discretionary to
individual inspectors with respect to routine inspections, and (b) reactive in terms of how it
conducts focused inspections. With fewer than 450 inspectors responsible for overseeing the
nation’s vast network of 230,000 miles of rail, it is critical that FRA’s inspection and


4
    Although still under investigation by NTSB and FRA, this accident reportedly resulted from the failure of the crew of a
    train that had entered a siding to switch the track back to the main line.
5
    The leading cause of railroad accidents is railroad tracks that have spread due to defective or missing ties, a condition
    known as “wide gage.”
                                                                                                 5


enforcement efforts be carefully targeted to address those safety problems that are most likely to
result in accidents and injuries.

We recommended that this be done through systematic use of trend analysis, along with other
data analysis tools, to examine key indicators of a railroad’s safety condition (e.g., its accident
rate, defect ratio, and employee injury statistics). FRA would benefit from a data-driven
inspection program that makes substantially greater use of objective analysis of empirical data
and metrics to target its inspection and enforcement activities. Using this approach would
enable FRA to better articulate its rationale for how it allocates its inspection resources and
decides upon appropriate levels of enforcement.

FRA Must Balance Cooperation with Traditional Enforcement, Analysis Shows

In our December 10, 2004 memorandum on the investigation of whether FRA had relaxed safety
enforcement, we also reviewed three components of FRA safety and enforcement efforts:
traditional enforcement, the Safety Assurance and Compliance Program (SACP), and the
Responsibility-Based Enforcement (RBE) policy. As part of the SACP program, railroad
managers and union officials with FRA at the regional level discuss safety problems and
develop proposals to eliminate them. The RBE policy fosters safety discussions among the
highest level FRA officials and railroad executives.

We noted that both the SACP and the RBE are partnership approaches to compliance and
enforcement, and that such approaches need to be sensitive to the point in time when the
partnership has gone far enough and traditional enforcement is most appropriate. Our December
2004 memorandum also noted that audits of the SACP in 1998 and 2002 revealed weaknesses in
the program.

Safety-Related Results and Recommendations of Other Audits

A number of audits and reviews yielded other findings and recommendations to FRA.
Specifically, they recommended:

   • completing safety-related rulemakings.
   • creating new methods for reducing highway-rail grade crossing accidents.
   • establishing a task force to improve CSXT track safety.
   • improving oversight of track ballast replacement practices and following up on ballast
     deficiencies in roadway investments.
   • ensuring that partnering in enforcement efforts does not lead to overlooking violations.
                                                                                            6


Over the next several months, we will review FRA’s implementation of our recommendations.
The attachment lists prior audit report recommendations by audit report number.

If I can answer any questions, please feel free to contact me at (202) 366-1959, or my Deputy,
Todd Zinser, at (202) 366-6767.

                                              #

Attachment
                                                                                                    7




                      Attachment. Prior Office of Inspector General
                        Audit Findings/Recommendations to FRA


Audit of DOT’s Rulemaking Process and Tracking System
Report No. SC-2004-035, March 2, 2004

Findings. FRA missed the milestone dates for two of three safety rulemakings that had
milestone dates between January 1 and June 30, 2003. As of July 2003, FRA had four safety
rulemakings open (two of which had been open for 5 years or more). These four safety
rulemakings were:

• Whistle Bans at Highway-Rail Grade Crossings—P.L. 103-440 requires the Secretary to
  prohibit local whistle bans, except where there is insignificant risk of accidents, alternative
  safety measures are adequate, or use of a horn as a warning is impractical.
• Standards for Development and Use of Processor-Based Signal and Train Control Systems—
  seeks to facilitate the introduction of positive train control technology by providing
  performance-based standards for new signal and training control systems.
• Application of Random Testing and Other Alcohol and Drug Regulations to Employees of
  Foreign Railroads—would apply FRA's random testing and other alcohol and drug
  requirements to employees of a foreign railroad whose primary reporting point is outside the
  United States, and who perform train service or dispatching service in the United States.
•   Minimum Standards for Temperature in the Locomotive Cab—would have amended current
    minimum temperature requirements and established maximum cab temperature
    requirements.


Follow-up Audit of DOT’s Rulemaking Process and Tracking System
Report No. SC-2005-031, December 21, 2004

Findings. This audit updated the March 2, 2004 audit (summarized above). As of June 30,
2004, FRA had five rulemakings open, all over 5 years old. They were:

• Whistle Bans at Highway-Rail Grade Crossings—cited above.
• Standards for Development and Use of Processor-Based Signal and Train Control Systems—
  cited above.
•   Locomotive Crashworthiness—would address the crashworthiness of locomotives pursuant
    to the Rail Safety Enforcement and Review Act of 1992.
                                                                                                8


• Locomotive Event Recorders—would improve the crashworthiness of railroad locomotive
  event recorders and would enhance the quality of information available for post-accident
  investigation.
•   Occupational Noise Exposure for Railroad Operating Employees—would amend FRA
    occupational noise standards for railroad employees whose predominant noise exposure
    occurs in the locomotive cab.

All five of these rules had milestones from July 1, 2003 through June 30, 2004. The FRA met
the milestones for two of rules and missed the milestones for three.


Audit of the Highway-Rail Grade Crossing Safety Program
Report No. MH-2004-065, June 16, 2004

Recommendations. We recommended that the Department, in implementing its new action
plan for grade crossing safety:

1. Require the states that have the most grade crossing accidents year after year, particularly at
   crossings that have experienced multiple accidents to develop an action plan that identifies
   specific solutions for improving safety at those crossings that continue to have accidents.

2. Encourage states to enhance educational programs to increase safety awareness, develop
   legislation to modify risky driver behavior through photo enforcement, and increase traffic
   enforcement strategies, including imposing stricter penalties, to target motor vehicle drivers
   who violate grade crossing safety laws and warnings.

3. Encourage states to set annual goals for closing grade crossings and strengthen their financial
   incentives to local governments for closures.

4. Identify a method for including FTA’s data on light and heavy rail transit grade crossing
   accidents and fatalities in the new action plan’s goals and statistics.

5. Promote mandatory reporting requirements for railroads and states through rulemaking or
   legislation to improve the accuracy and completeness of FRA’s national grade crossing
   inventory data, to identify high-risk crossings and strategies to mitigate risks. The data
   should also be used to monitor the effectiveness of the new action plan’s strategies, identify
   needed changes, and make adjustments, as necessary. FRA and FHWA should work
   cooperatively to accomplish mandatory inventory reporting.

6. Ensure that states comply with the annual requirement to submit evaluation reports to
   FHWA on expenditures of Federal safety improvement funds, including the cost and safety
   benefits of crossing improvements
                                                                                             9




Memorandum on the Follow-up Audit of Safety Assurance and Compliance Program
April 18, 2002

Findings

FRA should make greater use of inspection results developed in the SACP process to better
focus inspection and enforcement efforts on safety concerns that are most likely to result in
accidents and injuries.

FRA should increase program guidance to all field personnel that stresses greater
standardization and more consistent use of formal Safety Action Plans to address safety
concerns that have been identified through SACP.

FRA should ensure that partnering under SACP does not detract from reporting violation
defects, issuing violations, and assessing and collecting penalties.


Memorandum on the CSXT Track Safety, October 3, 2002

Recommendations

   1. FRA should establish a task force of track discipline specialists and inspectors from
      regions outside CSXT territory to work closely with FRA Headquarters and CSXT senior
      management to perform a system-wide review of compliance with Federal track safety
      standards.

   2. If warranted by the results of the system-wide review, FRA should enter into another
      compliance agreement with CSXT to ensure track safety.


Report on Review of Slow Orders and Track Reclassification
Report No. MH-2004-007, December 10, 2003

Recommendations

   1. Review CSXT ballast replacement practices, and follow-up on ballast deficiencies noted
      during previous FRA safety audits and inspections.

   2. Monitor railroad R-1 reports on a continuous basis to identify potential problems in
      roadway investment, such as ballast, and use the information to target safety inspections
      on individual railroads.
